BECKER GALLAGHER
Briefs

and

DoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief in Opposition for
Respondent Pao Tatneft in 19-606, Ukraine, clo Mr.
Pavlo Petrenko, Minister of Justice v. Pao Tatneft, were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 26th day
of November, 2019:
Maria Kostytska
Winston & Strawn, LLP
1700 K Street NW
Washington, DC 20006
(202) 282-5841
mkostytska@winston.com

Counsel for Petitioner
Jonathan I. Blackman
Counsel of Record
Mark E. McDonald
Margaret Schierberl
Alyssa M. Helfer
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, NY 10006
(212) 225-2000
jblackman@cgsh.com
Matthew D. Slater
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Avenue, NW
Washington, DC 20037

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

A.

J.

WOLF,

J.D.

KERSHNER,

J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 26, 2019.

DonnaJ. Wo
Becker Gallagher Legal
blishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

